District Court Of Appeal Of The State Of Florida
Fourth District
LYNN WEINBERG,
Appellant,
v.
DEBORAH BORT,
Appellee.
No. 4D19-3040
[May 7, 2020]
CORRECTED OPINION
Appeal from the Circuit Court for the Fifteenth Judicial Circuit, Palm
Beach County, Charles E. Burton, Judge; L.T. Case No.502001CP003521.
Lynn Weinberg, Bayville, NJ, pro se.
Geoffrey M. Cahen of Cahen Law, P.A., Boca Raton, and Lisa Paige
Glass of the Glass Law Office, PA., Boca Raton, for appellee.
Per Curiam.
Affirmed.
Ciklin and Kungensmtth, JJ., and Levenson, Jeffrey R., Associate Judge,
concur.
*

*

Not final until disposition of timely filed motion for rehearing.

W&mit A

IN THE CIRCUIT COURT OF THE 15TH
JUDICIAL CIRCUIT IN AND FOR
PALM COUNTY, FLORIDA
PROBATE DIVISION
CASE NO. 502001CP003521XXFOIY
IN RE: ESTATE OF JOSEPH WEINBERG
Deceased.
LYNN WEINBERG,
Petitioner,
vs.
DEBORAH BORT,
Respondent.
/

ORDER ON DEBORAH BORT’S MOTION TO DISMISS 2019 PETITION
OF LYNN WEINBERG
THIS CAUSE came before the Court on August 23,2019 on Deborah Bort’s (“Bort”)
Motion To Dismiss Lynn Weinberg’s Petition to Correct Erroneous $63,819.56 Promissory Note
Payment and Correct Fundamental Errors dated May 24,2019 (“2019 Petition”). The Court has
carefully considered the Motion, the response thereto, reviewed the lengthy history documented in
the court file, heard argument ofthe parties, and is otherwise advised in the premises. Accordingly,
it is:
ORDERED AND ADJUDGED as follows:
1.

The Motion to Dismiss is GRANTED with prejudice.

2.

The 2019 Petition is barred by law ofthe case and resjudicata because it arises from

Ms. Weinberg’s dissatisfaction with the Court’s December 29,2006 Order. That Order directed the
disbursement of the dollars in issue, $50,000 plus $13,819.56 in interest That Order was affirmed
by the Fourth District Court of Appeal in 2008 (4D07-4608). The Court also dismissed the same

IN RE: ESTATE OF JOSEPH WEINBERG
CASE NO. 502001CP003521XXFOIY
ORDER ON MOTION TO DISMISS PETITION

claims presented by the 2019 Petition in a May 19,2015 Older, which was also affirm^ by the
Fourth District Court of Appeal in 2016 (4D15-2504).
3.

The 2019 Petition is barred by statute of limitations because it arises from the alleged

breach ofa2002 Settlement Agreement and Deed ofDisclaimer executed by the parties. The breach
allegedly occurred in 2007 or earlier, so the claim is barred by the five-year statute of limitation
period for breach of a written contract.
4.

The Court hereby directs the Clerk of Court to close the case. The parties agree that

there are no remaining assets subject to probate.
5.

If the Petitioner, Lynn Weinberg, wishes to submit another petition or complaint

against Deborah Bort in this 18 year old litigation or any action concerning the Pstatft or any Trust
of Joseph Weinberg, she shall be required to file a new case under a new case number and pay a new
filing fee.
DONE AND ORDERED in Chambers at Delray Beach, Florida, ibis 23rd day of August,
2019.

CHARLES E. BURTON
CIRCUIT JUDGE
cc:

Geoffrey Cahen, Esq., 1900 Glades R<L, Suite 270, Boca Raton, Florida 33433,
geoff@eahenlaw.com
Lynn Weinberg, 220 Riverside Drive, Bayville, New Jersey 00721, lynnierw@aol.com

{28265272;!}

•

1/

«

PROMISSORY NOTE

Lake Worth, Florida
February <^5, 2002

$50,000

For value received, the undersigned promises to pay to the order of DEBORAH W. BORT, as Custodian FBO
SHARON BORT, under the Uniform Transfers to Minors Act, at 436 Rockview Avenue, North Plainfield, New
Jersey 07063, the principal sum of FIFTY THOUSAND AND 00/100 DOLLARS ($50,000), without interest,
except after default. This Note shall be due and payable in full on the 30th day of June, 2002.
This note shall be considered in default when any payment required to be made hereunder shall not have been
made within 10 days following its due date and shall remain in default until said payment shall have been made.
While in default, this note shall bear interest at the rate of 18% per cent annum in lieu of the rate hereinbefore
specified. If such default shall not be made good within 10 days following its due date, the entire principal sum
and accrued interest shall at once become due and payable, without notice, at the option of the holder of this
note. Failure at any time to exercise this option shall not constitute a waiver of the right to exercise the same at
any other time.
„
•
f As further consideration for the promises and covenants set forth in the Settlement Agreement by and between,,
jf the Maker and Payee, this note shall not be assignable and any attempt by Payee to assign this note, with’fofL
| without consideration therefor, shall immediately void this note and the Maker's obligations to make the payments
( set forth herein. Payment and collection of this nofe shall be limited exclusively to the net proceeds of the
maker's inheritance from the Estate of Joseph Weinberg and the Joseph Weinberg 1997 Revocable Trust (the
I
“Estate and Trust"), after payment of all taxes, claims, administrative expenses and fees, excluding fees for
I
services paid to the Maker. In the event the net proceeds of the Estate and Trust are insufficient to make the full
\ payment to Payee, the net proceeds of the Estate and Trust shall be divided equally between Maker and Payee,
\ but under no circumstances shall the payment obligation exceed the amount set forth above. In such event, the
\ unpaid payment obligation shall be forgiven.
Each maker and endorser further agrees, jointly and severally, to pay all costs of collection, including a
reasonable attorneys* fee in case the principal of this note or any payment on the principal or any interest thereon
is not paid at the respective maturity thereof, or in case it becomes necessary to protect the security 'hereof,
whether suit be brought or not, including attorneys' fees and costs in all appellate proceedings.
This note is secured by a First mortgage on date herewith and is to be construed and enforced according to the
laws of the State of Florida] upon default in the payment of principal and/or interest due on any note secured by
said Mortgage, all notes so secured and remaining unpaid shall forthwith become due and payable
notwithstanding their tenor.
Each maker or endorser or any other person, firm or corporation becoming liable under this note hereby consents
to any extensions or renewals of this note or any part thereof without notice and agree that they will remain liable
under said note during any extensions or renewals hereof until the debt represented hereby is fully paid.

{M

4

(
Z
^LYNN R. WEINBERG

fymbit c

.(SEAL)

e.
!

-•v

jAtnmARloBPiL
£0. Bn 229010
Hollywood, FL 3300*9010

DEED OP DISCLAIMER
A'

KNOWALLMBN BY THESE PRESENTS, that l DEBORAHW. BORT, of 436
RockviewAyom^ North PlainficM,Nc»'Jersey 07063, as beneficiary of the

of JOSEPH

WEINBERG, who died on March 22,_2001.domiciled in die StHc of Florida rad whose will has
been admitted to (nobate by Ibe Ciicuh Court ofPalm Beach Comity, Florida, on August 8,2001,
i*

nod whose estate is be^ administered pursuant to appoi
iiiiL ! U tr i i of DEBORAHW. BGRTbythe
Circuit CoutLofFalm Beach Comity, Florida, on August 8,2001, and aa beneficuay under the
JogtpJh Weinberg Revocable That Agreement Dated 4/28/97. hereby hi»ia». renmmens and
fereverrefines to accept any mid aD interest or benefit fiom bar one-half interestofthe lesdoaiy
tsUt* created under Rem III of aaid Last Will and Testament of JOSEPH WEINBERG, mid Cram
her one-half interest created under Section 4 ofthe Joseph WeMberg Revocable That Agreement
Dated4/28/97. to wfakli I am or may be entitled,whether now known to me or hereafter diaoorcred
Or identified, and whether pasting under said will, Trust, intestacy or by operation ofother law or
_ Order. This instrumaBt of disclaimer is prepared pursuant to F.S.A. Section 732.%)! and F.S.A.
Sectiim 689.21 end in satisfmmon of the requirements ofInternal Revenue Code, Section 2518, to

be fite&iecoiried and delivered as provided by said statutes.
IN Wljdh^SS WHEREOF, I have signed this Deed of Disclaimer this i^fU
_

day of

.2001.
i

Zjl

la

Whom

DEBORAH W. BORT, Disclannant
i

Please Pea: Name

S. FT im to* trO

•
*

$sAn A/rxanJer
mm Amt Name
£

■

fWPePM D

